WAIVER

Supreme Court of the United States

No. 20-202

Robert: Massie ve Basilea Mena
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:

K Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

i Iam a member of the Bar of the Supreme Court of the United States.

Q lam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
» . AN
Signature

 

Date: Reghonhur ty 2020

(Type or print) Name. WA (had We Risver
Mr. OMs. O Mrs. O Miss

Firm, (2VsvER And GRAVAM

 

Address_fOgM. STINE AV 3 ae Sd?
City & State’ 1wee2eN\ } AZ, tp PF20/

hone (524)622-744 Y

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce Denis & MeLaucH LA

° michelle ®& Saaveoka
RA Boye 27210
Thea AZ 959 26—-]200

 

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://Awww.supremecourtus.gov. Have the Supreme Court docket number available.
